OIG Audit Report GR-40-00-007
Office of Justice Programs
	Grant to Encourage Arrest Policies to 
Metropolitan Dade County, Florida
Audit Report GR-40-00-007
February 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant number 97-WE-VX-0006.  The grant was awarded by the U.S. Department of Justice, Office of Justice Programs, to Metropolitan Dade County, Florida (the County).  The County was awarded the $615,742 grant; however, actual performance under the grant was by the Administrative Office of the Court, State of Florida, Eleventh Judicial Circuit (Administrative Office).  Accordingly, references to grant activities in the report will refer to the Administrative Office.  The Administrative Office was tasked to initiate a collaborative effort among the judiciary, mental health professionals, the child protective system, and domestic violence advocates for developing an intervention program.  The program was to focus on women and children involved in dependency cases and who come from homes with a history of domestic violence.  The program was to centralize and coordinate judicial and social service responsibility for domestic violence cases in dependency court as well as provide support and protection to victims after a complaint and arrest.  As such, the Administrative Office formed the Dependency Court Intervention Program for Family Violence.  The original grant period was February 1, 1997, through July 31, 1998, but was extended through February 29, 2000, with the approval of a $1,110,654 supplement.  The supplement was awarded to continue to develop and implement a coordinated approach to promoting the safety of battered mothers and their children in the context of child abuse proceedings.    

	In brief, our audit determined the Administrative Office:

Charged unsupported costs of $9,325 to the grant.

	Understated by $5,003 the cumulative total outlays on the September 30, 1999, Financial Status Report.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.